TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 Deficiencies Exist in the Control and Timely
                     Resolution of Whistleblower Claims



                                       August 20, 2009

                            Reference Number: 2009-30-114




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                August 20, 2009


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Deficiencies Exist in the Control and Timely
                               Resolution of Whistleblower Claims (Audit # 200830034)

 This report presents the results of our review to assess the Internal Revenue Service’s (IRS)
 progress in establishing a Whistleblower Program. Our review included assessing the
 implementation of the Whistleblower Office and the controls monitoring the disposition of new
 claims. This audit was conducted as part of our Fiscal Year 2008 Annual Audit Plan under the
 major management challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 The Whistleblower Program provides the IRS with an opportunity to recover potentially billions
 of dollars in taxes, penalties, and interest based on information provided by informants. The Tax
 Relief and Health Care Act of 2006 1 amended the Internal Revenue Code to provide increased
 awards to individuals for information that leads to the detection and punishment of persons guilty
 of violating, or conspiring to violate, internal revenue laws. The IRS has seen significant growth
 in claims since the passage of this law with claims in Calendar Year 2008 alleging more than
 $65 billion in underreported income. 2 However, without effective control over and timely
 processing of these claims, the success of the IRS Whistleblower Program could be diminished.




 1
  Pub. L No. 109-432, 120 Stat. 2958 (2006).
 2
  The underreported income amount is solely based on allegations by the whistleblowers submitting the claims. The
 completion of the process to validate an allegation through the performance of an audit can take years to complete.
 As such, it is too soon to tell what amount of taxes, interest, and penalties may ultimately be collected.
                       Deficiencies Exist in the Control and Timely Resolution of
                                         Whistleblower Claims




Synopsis
The intent of the Tax Relief and Health Care Act of 2006 was to provide focus on large-dollar
cases with the potential of collecting billions of dollars for the Department of the Treasury.
Under this law, whistleblowers can now receive a minimum award of 15 percent and a maximum
of 30 percent of collected proceeds if their information leads to additional tax assessments. This
Act created Section 7623(b) of the Internal Revenue Code 3 which generally requires the IRS to
pay larger awards on amounts in dispute of more than $2 million for business taxpayers and
$200,000 for individuals. The IRS refers to these types of cases as “7623(b) claims.” For those
cases that do not meet the dollar threshold for 7623(b) claims, these claims are referred to as
7623(a) 4 claims which still qualify for lower award percentages if the information provided leads
to the detection of an underpayment in taxes.
The Tax Relief and Health Care Act of 2006 required the IRS to establish a Whistleblower
Office and develop processes to begin to distinguish whistleblower claims based on the potential
amount of taxes to be recovered. The amendments in this Act to whistleblowers awards applied
to information provided on or after the date of the enactment of this Act. However, many of the
necessary administrative processes were not established, including the development of an
effective claim control system.
Since standup, the Whistleblower Office has initiated a number of actions in an attempt to
improve on the prior Informant Rewards Program which it replaced. However, the IRS did not
have an effective inventory control system or adequate procedures and processes at the time of
our review. To mitigate the limitations of its prior inventory control system, management relied
on multiple systems to track and control claims. This resulted in inaccuracies and
inconsistencies in the control and tracking of 7623(b) claims. Management has been in the
process of developing and implementing a new inventory system for approximately 2 years and
is in the process of transferring its 7623(b) claims inventory to this new system. Nonetheless,
without effective procedures and processes to ensure timely, accurate input of case information
into this system, the problems we noted with its inventory controls may continue to exist. In
addition, timeliness standards and a process to monitor whether claims are worked timely had
not been established.
The False Claims Act covers false claims by government contractors but specifically excludes
tax fraud. The Whistleblower provisions in the Tax Relief and Health Care Act of 2006 cover
actions in the area of tax compliance and provide a structure that is similar in certain respects to
the False Claims Act. However, unlike the False Claims Act, Whistleblower law related to tax
fraud does not include specific provisions for employee protection against retaliation by an

3
  Section 406 of the Act amended 7623 of the Internal Revenue Code concerning payment of awards to certain
persons who detect underpayment of tax (2006).
4
  This review focused on the control and processing of 7623(b) claims.
                                                                                                             2
                    Deficiencies Exist in the Control and Timely Resolution of
                                      Whistleblower Claims



employer. Our discussions with representatives within the operating divisions who work with
whistleblowers identified that whistleblowers are concerned regarding possible retaliation from
employers and that their confidentiality is their utmost concern.

Recommendations
The Director, Whistleblower Office, should ensure that reporting capabilities are included in the
newly implemented single inventory control system and perform a physical reconciliation of
7623(b) claim information to ensure that the information captured from existing systems and
input into the new system is accurate. In addition, written procedures with timeliness standards
should be established and processes to monitor the timely processing of claims should be
developed.

Legislative Recommendation
Legislation is needed to ensure that informants are protected against retaliation by their
employers and to provide specific relief to informants who are retaliated against.

Response
IRS management agreed with all of our recommendations. The IRS identified the need for
reporting capabilities in the new E-TRAK inventory control system and those capabilities are
now in place. In addition, the IRS identified the need to have a single inventory system and will
ensure the accuracy of information in that system by completing the process in three phases with
the final phase to be concluded in 2010. In addition, the IRS has established a quality control
process based on a statistical sample of records to ensure accuracy of data. The IRS has
developed written procedures to ensure effective processing, evaluation, tracking, and
monitoring of whistleblower claims. However, pursuing new legislation to protect informants
against retaliation by their employers is outside the jurisdiction of the IRS. Management’s
complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Because this report contains a legislative recommendation, we will provide a
copy to the Assistant Secretary of the Treasury for Tax Policy. Please contact me at
(202) 622-6510 if you have questions or Michael E. McKenney, Assistant Inspector General for
Audit (Returns Processing and Account Services), at (202) 622-5916.




                                                                                                    3
                           Deficiencies Exist in the Control and Timely Resolution of
                                             Whistleblower Claims




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Multiple Inventory Systems and Inadequate Procedures and Processes
          Resulted in Ineffective Control Over Whistleblower Claims. ......................Page 7
                    Recommendations 1 and 2: ..............................................Page 10

          Whistleblower Claims Are Not Timely Processed .......................................Page 11
                    Recommendations 3 and 4: ..............................................Page 12

          Whistleblower Law Does Not Include Employee
          Protection Against Retaliation ......................................................................Page 13
                    Recommendation 5:........................................................Page 14


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Management’s Response to the Draft Report ......................Page 20
         Deficiencies Exist in the Control and Timely Resolution of
                           Whistleblower Claims




                      Abbreviations

I.R.C.          Internal Revenue Code
IRS             Internal Revenue Service
                       Deficiencies Exist in the Control and Timely Resolution of
                                         Whistleblower Claims




                                            Background

The Internal Revenue Service (IRS) Informant Rewards Program was created to make award
payments to private citizens who assist in detecting underpayment of tax. Section 7623 of the
Internal Revenue Code (I.R.C.) 1 authorizes the IRS to
pay awards to individuals for information that leads to
the detection and punishment of persons guilty of            The Informant Rewards Program
violating, or conspiring to violate, internal revenue laws.  provided rewards to individuals
                                                                         who gave the IRS information
Prior to December 2006, awards paid were between             that led to the detection and
8 and 14 percent of the taxes, fines, and penalties         punishment of individuals who
                                                                   violated tax laws.
collected during Fiscal Years 2001 to 2005. The
percentage was based on the connection of the
informant’s information to the recovery. From Fiscal
Years 2001 through 2005, more than $340 million in taxes, fines, penalties, and interest were
recovered based on information obtained through the Informant Rewards Program. Awards of
more than $27 million were paid to informants.
On December 20, 2006, Congress passed the Tax Relief and Health Care Act of 2006, 2 creating a
centralized Whistleblower Office and amending the law to provide increased awards to
informants (whistleblowers) who provide information resulting in the collection of taxes,
penalties, interest, and other amounts. To comply with the law, the IRS created the
Whistleblower Office which replaced its former Informant Rewards Program. The intent of the
legislation was to provide focus on large-dollar cases with the potential of collecting billions of
dollars for the Department of the Treasury. Under the new law, whistleblowers can now receive
a minimum award of 15 percent and a maximum of 30 percent of collected proceeds. The Act
created Section 7623(b) of the I.R.C. 3 which generally requires the IRS to pay larger awards on
amounts in dispute of more than $2 million for business taxpayers and $200,000 for individuals.
The IRS refers to these types of cases as “7623(b) claims.” Those cases that do not meet this
dollar threshold are referred to as 7623(a) claims. 4

Process to submit a claim for award
    •   To report possible instances of tax fraud by a business or individual, a whistleblower
        submits an Information Report Referral (Form 3949A) and includes documentation in


1
  26 U.S.C. Section 7623 (2004).
2
  Pub. L No. 109-432, 120 Stat. 2958 (2006).
3
  I.R.C. Section 7623(b) (2006).
4
  This review focused on the control and processing of 7623(b) claims.
                                                                                                    Page 1
                        Deficiencies Exist in the Control and Timely Resolution of
                                          Whistleblower Claims



         support of the allegation. If the informant wants an award for the information provided,
         he or she must complete an Application for Award for Original Information (Form 211).
         The informant then sends the application and referral to the IRS Whistleblower Office
         located in Washington, D.C., for processing.
    •    The Whistleblower Office performs an initial review of the claim to identify whether it
         meets 7623(b) criteria and sends a letter acknowledging receipt of the claim and
         identifies the Whistleblower Office analyst assigned to process the claim. 5 Those that do
         not meet the 7623(b) dollar criteria are sent to the IRS Ogden Tax Processing Center for
         processing.
    •    A Whistleblower Office analyst researches IRS data files to determine whether the
         business or individual is already under examination, identifies assets and associated
         businesses, and performs a risk assessment to identify potential risk factors and/or fraud
         indicators. If the analyst concurs that the claim meets 7623(b) criteria and no fraud
         indicators are present, it is routed to the appropriate operating division for evaluation. 6 If
         fraud indicators are present, the claim is routed to the Criminal Investigation Division for
         evaluation.
    •    The operating division is responsible for evaluating the claim to determine if an
         examination is warranted. Based on the operating division’s review:
         o A claim may be accepted for examination. The examination is conducted and when
           completed the operating division prepares a Confidential Evaluation Report on Claim
           for Reward (Form 11369). The Form 11369 is forwarded to the Whistleblower
           Office for review and the Director, Whistleblower Office, will determine the award
           percentage to be paid.
         o If a claim is not accepted for examination, a Form 11369 is prepared that includes an
           explanation as to why the claim does not warrant examination. The claim is then
           returned to the Whistleblower Office for review and issuance of a closing letter to the
           informant.
The completion of the above process can take years. Whistleblowers will receive awards only
based on what is collected subsequent to the completion of the examination. Because taxpayers
may exercise their judicial appeal rights or enter into alternative payment arrangements, payment
of the award could take up to 10 years. For example, the Whistleblower Office recently paid an
award on a 7623 claim 15 years after the claim was received. Because of the time periods to


5
  The Whistleblower Office currently has six analysts located in Santa Rosa, California; Plantation, Florida;
Brooklyn Center, Minnesota; Independence, Missouri; Buffalo, New York; and Houston, Texas.
6
  The operating divisions involved in the Whistleblower Program are the Large and Mid-Size Business,
Small Business/Self-Employed, or Tax Exempt and Government Entities.
                                                                                                                Page 2
                       Deficiencies Exist in the Control and Timely Resolution of
                                         Whistleblower Claims



process claims and collect taxes assessed, no awards have been paid out yet on 7623(b) claims
received.
Figure 1 shows the status of 7623(b) claims processed in the Whistleblower Office as of
March 30, 2009.
                 Figure 1: Status of 7623(b) Claims as of March 30, 2009 7
                                                    Open        Reclassified
                        Office                                                    Rejected        Total
                                                  Inventory       7623(a)
       Whistleblower Office                              5                4               1          10
       Whistleblower Analyst                             30              149           137          316
       Criminal Investigation Division
       Review                                          685                              17          702
       Operating Division for Initial Review             25                 1             2          28
       Operating Division Subject Matter
       Expert                                          700                  5          133          838
       Operating Division Counsel                         2                               1            3
       Operating Division Examination                    69                 1             6          76
           Claims                                   1,516                160           297        1,973
      Source: Access database as of March 30, 2009.

A prior Treasury Inspector General for Tax Administration review identified
control weaknesses over the Informant Rewards Program
                                     In 2006, we completed a review of the Informant Rewards
   Our 2006 review identified a lack Program, which is the Program that existed prior to the
       of detailed policies and      enactment of legislation creating the Whistleblower
      procedures which limited       Office. This review included an assessment of controls
    management oversight in the      over all claims (since the categories of 7623(a) and
    Informant Rewards Program.
                                     7623(b) claims were not yet codified in the law). The
                                     review 8 found that the Program significantly contributed to
                                     the IRS’ efforts to enforce tax laws, but also that
additional management focus could enhance the effectiveness of the Program. A lack of
standardized procedures and limited managerial oversight resulted in control weaknesses. It took
more than 7½ years from the receipt of the initial claim to the payment of the award. There were

7
  Our report raises concerns regarding the accuracy of claim management information (see page 7). However, this is
currently the best information the Whistleblower Office has regarding 7623(b) claims in inventory.
8
  The Informants’ Rewards Program Needs More Centralized Management Oversight (Reference
Number 2006-30-092, dated June 6, 2006).

                                                                                                           Page 3
                        Deficiencies Exist in the Control and Timely Resolution of
                                          Whistleblower Claims



lapses in the monitoring of taxpayers’ accounts for payment activity, which may have delayed
the claims. The rejected claims took more than 6½ months between the date of the decision to
reject the claim and issuance of the denial letter to the informant. In addition, for the 22 paid
informant claims reviewed:
    •    10 claims (45 percent) had problems with basic control issues (e.g., missing copies of key
         forms, no record of letters to informants).
    •    7 claims (32 percent) did not have documentation to justify the award percentage.
Finally, for 52 (75 percent) of 69 rejected claims reviewed, we were unable to determine the
rationale for the reviewer’s decision to reject the claim. We recommended that the IRS develop
and implement a detailed nationwide database to provide increased visibility of the processing
and disposition of informant claims. IRS management agreed with our recommendations and
stated that corrective actions would be taken which included implementing a nationwide
web-based system to track, monitor, and control informant claims.
This review was performed in the Whistleblower Office at the IRS National Headquarters in
Washington, D.C., and at the field office of an analyst in Buffalo, New York, during the period
June 2008 through March 2009. The focus of this review was on 7623(b) claims, the category
created by the Tax Relief and Health Care Act of 2006. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. However, we did note weaknesses in application controls 9 over information
systems that led us to conclude that available data were not complete or accurate. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




9
 Application controls include controls over input, processing, output, master data, application interfaces, and
management system interfaces.
                                                                                                              Page 4
                    Deficiencies Exist in the Control and Timely Resolution of
                                      Whistleblower Claims




                                Results of Review

The Tax Relief and Health Care Act of 2006 required the IRS to establish a Whistleblower
Office and develop processes to begin to distinguish whistleblower claims based on the potential
amount of taxes to be recovered. The amendments in this
Act to whistleblower awards applied to information
provided on or after the date of the enactment of this Act.    The Tax Relief and Health Care
However, many of the necessary administrative processes        Act of 2006 requires the IRS to
                                                                 issue an Annual Report to
were not established, including the development of an          Congress on the use of Section
effective claim control system. Since standup, the               7623 including the results
Whistleblower Office has initiated a number of actions in                obtained.
an attempt to improve the Program. These actions
include:
   •   Standing up a centralized Whistleblower Office to administer the IRS Whistleblower
       Program. Previously, all claims were processed at the IRS Ogden Tax Processing Center.
       Subsequent to enactment of the provisions in the Tax Relief and Health Care Act of 2006,
       the IRS needed to develop a new process for the receipt, review, and processing of
       whistleblower claims. This was necessary to distinguish between those claims meeting
       7623(b) criteria from those that met 7623(a) criteria.
   •   Appointing a Director in February 2007 to oversee the Whistleblower Office.
   •   Requesting the development of a single inventory control system to track both the
       7623(a) and 7623(b) claims. IRS management’s goal is to have this system in place and
       fully operational in July 2009.
   •   Developing a communication plan to promote the new Program. Actions included the
       development of presentation material for internal and external audiences, development of
       training modules for the operating divisions, development of web sites for internal and
       external audiences, and the search for funds to develop a training video series.
   •   Establishing a procedure where the IRS and the whistleblower can enter into a contract to
       disclose specific return information pertaining to an allegation.
   •   Issuing an Annual Report to Congress on June 24, 2008, as required by the Tax Relief
       and Health Care Act of 2006. The Act requires the Secretary of the Treasury to conduct a
       study and report to Congress each year on the use of Section 7623, including an analysis
       of the use of that section and the results obtained, as well as any legislative or
       administrative recommendations regarding Section 7623 and its application. The Annual


                                                                                          Page 5
                    Deficiencies Exist in the Control and Timely Resolution of
                                      Whistleblower Claims



       Report detailed actions taken in the first 12 months since the standup of the
       Whistleblower Office. Actions cited included:
       o Staffing the Whistleblower Office.
       o Designing the program flow for processing new whistleblower claims.
       o Developing a communication plan to address outreach to the public and IRS
         personnel.
       o Developing program guidance and revising claim forms.
The Whistleblower Program provides the IRS with an opportunity to potentially recover billions
of dollars in alleged underpayment of taxes, penalties and interest. However, the IRS did not
have an effective inventory control system or adequate procedures and processes at the time of
our review. To mitigate the limitations of its prior inventory control system, management relied
on multiple systems to track and control claims. This resulted in inaccuracies and
inconsistencies in the control and tracking of 7623(b) claims. Management has been in the
process of developing and implementing a new inventory system for approximately 2 years and
is in the process of transferring its 7623(b) claims inventory to this new system. Nonetheless,
without effective procedures and processes to ensure timely, accurate input of case information
into this system, the problems we noted with its inventory controls may continue to exist. In
addition, timeliness standards and a process to monitor the timely working of claims had not
been established.
The IRS has seen significant growth in 7623(b) claims since the passage of the new law.
Without effective control over and timely processing of these claims, the effectiveness of the IRS
Whistleblower Program could be diminished. Figure 2 provides a comparison by calendar year
for claims received with indications of alleged underreported income.
                              Figure 2: 7623(b) Claim Receipts
                                                               Alleged Income
                      Calendar Year           Claims
                                                               Underreported
                           2007                   83                $8 billion
                           2008               1,890                $65 billion
                   Source: Whistleblower Office Access database as of March 30, 2009.

It should be noted that the underreported income amounts in Figure 2 are solely based on
allegations by the whistleblowers submitting the claims. The completion of the process to
validate an allegation through the performance of an audit can take years to complete. As such,
it is too soon to tell what amount of taxes, interest, and penalties may ultimately be collected.




                                                                                           Page 6
                       Deficiencies Exist in the Control and Timely Resolution of
                                         Whistleblower Claims



Multiple Inventory Systems and Inadequate Procedures and
Processes Resulted in Ineffective Control Over Whistleblower Claims
Since the standup of the Whistleblower Office in February 2007, management has had to rely on
multiple systems in an attempt to accurately control 7623(b) claims. As a result, the process to
control and track 7623(b) claims was inefficient and ineffective. Each system lacks the basic
functionality needed to accurately track claims and their processing. As such, management did
not have the ability to generate management information reports to track the processing of claims
and, ultimately, evaluate the success of the Program. In response to our prior review, IRS
management agreed with our recommendation to develop a nationwide web-based inventory
control system to track claims. Management anticipates its new nationwide tracking system will
be fully operational in July 2009.
The Whistleblower Office maintains three inventory control systems for 7623(b) claims. The
three systems are independent of each other and we identified inconsistencies among the claim
information contained in these systems. Management noted that the additional systems have
been necessary because the previous system did not allow management to distinguish between
the types of claims (i.e., 7623(a) and 7623(b)) as required by the passage of legislation in
December 2006. The systems in use are the:
     •   ICEWEB 10 Inventory Control System – This system was in place at the time the
         legislation was enacted. However, this web-based system did not provide management
         with the ability to generate reports by claim type and did not provide management with
         the ability to monitor the processing status of claims. If management needed to identify
         those claims that were classified as 7623(b), they were required to manually determine
         this count. However, management has been unable to cease using this system because
         the ICEWEB system generates a claim number that is used to track whistleblower claims.
     •   I-TRAK 11 Inventory Control System – In an effort to more effectively administer the
         program, the Whistleblower Office implemented the I-TRAK system in March 2007. It
         was implemented as the primary control system to track the 7623(b) cases. However,
         soon after implementation, the Whistleblower Office recognized deficiencies in this
         system. Specifically, the I-TRAK system also had no reporting capabilities and did not
         provide the level of detail needed regarding the status and processing of claims.



10
   Informant Claims Examination web-based system (ICEWEB) stores 7623 cases indefinitely and tracks case
dispositions including claim approval/denial and amounts.
11
   I-TRAK is a IRS-wide, web-based internal document tracking system that IRS leadership and business units can
use to timely and effectively manage their responses to issues raised by taxpayers, IRS employees, Congress, the
Department of the Treasury, the White House, the Government Accountability Office, and the Treasury Inspector
General for Tax Administration.

                                                                                                          Page 7
                    Deficiencies Exist in the Control and Timely Resolution of
                                      Whistleblower Claims



   •   Access Inventory Control System – Recognizing the deficiencies in the ICEWEB and
       I–TRAK systems, the Whistleblower Office implemented yet a third inventory control
       system using Microsoft Access. Management noted that this system was used to track
       the processing of 7623(b) claims as it enables the input of specific information as to the
       receipt, review, and routing of claims.
The initial release of the system that management has been developing since the standup of the
Whistleblower Office was brought into use in January 2009. The E-TRAK Inventory Control
System will eventually replace the multiple tracking systems currently being used. The
Whistleblower Office is in the process of transferring applicable information from the existing
three inventory systems to this new system. However, as of March 2009, the E-TRAK system
still did not provide management information reports and, until the information is transferred, the
Whistleblower Office will have to maintain four separate systems to control the claims.

Multiple inventory control systems resulted in inaccuracies and inconsistencies
The inventory tracking systems did not accurately and/or consistently track 7623(b) claims and
provide key information relative to these claims. Specifically, during the course of the audit,
management provided us with extracts from the Access Inventory Control System and told us
that this system would be the best source for us to identify 7623(b) claims. However,
management noted that there was a lag between when the claims were received and when they
were added to the Access database.
Initially, we were not aware of the significance of this lag. The initial database received from
management on October 30, 2008, did not accurately reflect claims in the possession of the
Whistleblower Office. There were 1,086 claims included in the database received on
October 30, 2008. However, an updated database received on February 24, 2009, included
1,973 claims. The additional 887 claims were added to the database between November 1, 2008,
and February 24, 2009, even though the claims were received between August 7, 2007, and
October 30, 2008.
The Access Inventory Control System is what management uses to provide statistical
information on whistleblower claims to internal and external stakeholders. Management
provides a similar caution regarding the delays in updating information so that stakeholders will
be aware of the limitations of the statistical information being provided.
In addition, we identified inconsistencies in the claims information included in the inventory
control systems. Our comparison of 7623(b) claim information on the ICEWEB, I-TRAK, and
Access Inventory Control Systems identified:
   •   144 claims that were assigned an ICEWEB system claim number but were not listed on
       either the I-TRAK system or the Access Inventory Control System.



                                                                                            Page 8
                    Deficiencies Exist in the Control and Timely Resolution of
                                      Whistleblower Claims



   •   146 claims were listed on the I-TRAK system but were not included in the Access
       Inventory Control System.
Management informed us that the extracts from the Access Inventory Control System contained
only 7623(b) claims. However, after we questioned management regarding the timeliness of
closing actions, management noted that 62 of the 72 claims listed as closed were actually 7623(a)
claims. Also, we identified that specific information regarding claims included in the
whistleblower inventory tracking systems was not always accurate. Our review of a judgmental
sample of the 32 oldest claims in inventory identified the following inaccuracies:
   •   Incorrect receipt dates. For 22 (69 percent) of the 32 claims in our sample, inventory
       records did not accurately reflect the date the IRS received the claim. The differences in
       claim receipt dates ranged from negative 13 calendar days to 165 calendar days.
       Procedural weaknesses during the Whistleblower Office standup period contributed to
       input errors. Figure 3 provides examples of the most significant discrepancies between
       the actual receipt date of the claim and the date of the receipt as shown in the inventory
       records.
                         Figure 3: Comparison of Receipt Dates
                                                        Received Dates
                                                           Access     Difference
                   Sample Number              Case File   Database     (in Days)
                    Sample Case #1           07/26/2007 08/21/2007         26
                    Sample Case #2           03/12/2007    05/08/2007         57
                    Sample Case #3           04/11/2007    05/11/2007         30
                    Sample Case #4           05/07/2007    06/18/2007         42
                   Sample Case #5             03/15/2007 08/27/2007            165
             Source: Whistleblower Office case files and Access database as of
             October 30, 2008.

   •   Incorrect transfer dates. For 13 (41 percent) of the 32 claims in our sample, inventory
       records did not accurately reflect the date the claim was transferred to the operating
       division. The differences in claim transfer dates ranged from negative 69 calendar days
       to 196 calendar days. Figure 4 provides examples of the most significant discrepancies
       between the date the claim actually transferred and the date that it was entered in
       inventory records.




                                                                                           Page 9
                       Deficiencies Exist in the Control and Timely Resolution of
                                         Whistleblower Claims



                             Figure 4: Comparison of Transfer Dates
                                                 Dates Routed to Operating Division
                                                              Access     Difference
                       Sample Number             Case File   Database     (in Days)
                       Sample Case #1            10/10/2007 08/02/2007       (69)
                       Sample Case #2            09/18/2007    08/22/2007        (27)
                       Sample Case #3            07/11/2007    11/30/2007         142
                       Sample Case #4            03/09/2007    04/27/2007         49
                       Sample Case #5             08/16/2007 02/28/2008            196
                 Source: Whistleblower Office case files and Access database as of
                 October 30, 2008.

Standards for Internal Control in the Federal Government 12 require that information be recorded
and communicated to management and others within the entity who need it and in a form and
within a time period that enables them to carry out their internal control and other
responsibilities. We recognize the efforts management has taken in an attempt to implement a
single inventory system to accurately control 7623(b) whistleblower claims. Management has
begun the initial implementation of its new system but has yet to develop a process to ensure that
the information input to this system is accurate. In addition, this new system may not solve the
problems we identified. For example, the initial release of the new system did not include
reporting capabilities even though they are critical in order for the system to be useful.

Recommendations
The Director, Whistleblower Office, should:
Recommendation 1: Ensure reporting capabilities are included in the newly implemented
E-TRAK inventory control system. These reporting capabilities should enable management to
generate management information reports to track the processing of claims and evaluate the
success of the program.
          Management’s Response: IRS management agreed with our recommendation. The
          IRS identified the need for reporting capabilities in E-TRAK inventory control system
          and those capabilities are now in place.
Recommendation 2: Perform a physical reconciliation of 7623(b) claim information to
ensure that the information captured from existing systems and input into the newly implemented
single inventory control system is accurate. In addition, a process should be developed to ensure
that claims are accurately controlled in the new inventory control system.

12
     GAO/AIMD-00-21.3.1, dated November 1999.
                                                                                          Page 10
                           Deficiencies Exist in the Control and Timely Resolution of
                                             Whistleblower Claims



           Management’s Response: IRS management agreed with our recommendation. The
           IRS identified the need to have a single inventory system and ensure the accuracy of
           information in that system. This will be completed in three phases, and the final phase
           will be concluded in 2010. In addition, the IRS has established a quality control process
           based on a statistical sample of records to ensure accuracy of data.

Whistleblower Claims Are Not Timely Processed
The Whistleblower Office had not established timeliness standards to evaluate claims; therefore,
with the concurrence of IRS management, we used a time standard for claims to be evaluated for
acceptance within 60 days. Applying this criteria, we determined that 738 (85 percent) of the
claims 13 received as of October 2008 were not processed and sent to an operating division for
acceptance for an examination within 60 days of receipt. There are significant delays in the
processing of whistleblower claims including:
       •   30 days on average to route claims from the Whistleblower Office to an analyst for
           review (with a range from 1 day to 454 days).
       •   107 days on average to route claims from the analyst to the operating division (with a
           range from 1 day to 507 days).
Management stated that establishing timeliness standards for processing claims had not been a
priority because the process was constantly changing. Management further explained that efforts
were focused on maintaining three tracking systems, developing procedures, training the staff,
and setting up a program design for processing claims and coordinating with the operating
divisions.
We recognize that there were competing priorities in establishing a new office. However, the
office has been in existence well over 2 years and, in our opinion, establishing standards to work
the claims should have been one of its immediate priorities. The Director, Whistleblower Office,
stated that he has made establishing baselines for processing claims one of his priorities in Fiscal
Year 2009. Subsequent to our fieldwork, the Director advised us that the office is using a time
standard of 60 days to evaluate the claims for acceptance.
Closing letters notifying whistleblowers of nonacceptance of claims were not timely issued
We identified significant delays in the issuance of closing letters to whistleblowers. Our review
of the 32 oldest 7623(b) claims identified that 13 were returned to the Whistleblower Office from
the operating division as rejected (no examination potential). The main reasons these claims
were rejected is that the business or individual was already under examination. For 12 claims, no
closing letters were sent to the informants despite the completed claim evaluations being
returned to the Whistleblower Office on average 290 days prior to our review. The receipt of the

13
     This analysis was based our initial database of 866 records that contained 1,086 claims.
                                                                                                Page 11
                    Deficiencies Exist in the Control and Timely Resolution of
                                      Whistleblower Claims



The underlying premise of the Whistleblower provision in the Tax Relief and Health Care
Act of 2006 is that individuals with knowledge of significant tax noncompliance issues would
come forward if there was a significant financial incentive for them to provide information to the
IRS. Protection against retaliation would increase the likelihood that employees would come
forward with information when their employers are significantly misreporting their tax liabilities.
Without such protection for employees, the risk of retaliation might outweigh the incentive of the
reward.

Legislative Recommendation
Recommendation 5: Legislation is needed to ensure that informants are protected against
retaliation by their employers and to provide specific relief to informants who are retaliated
against.
       Management’s Response: This recommendation is outside the jurisdiction of the
       IRS.




                                                                                           Page 14
                       Deficiencies Exist in the Control and Timely Resolution of
                                         Whistleblower Claims



                                                                                                 Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to evaluate the implementation of the Whistleblower
Office. Our review included assessing the implementation of the Whistleblower Office and the
controls monitoring the disposition of new claims.
To identify time lapses between activities, we analyzed the initial Access database received from
management on October 30, 2008, that showed 866 records without identifying the number of
related claims. During a briefing on February 4, 2009, the Director and Senior Advisor of the
Whistleblower Office informed us that the initial Access database was incomplete and provided
a subsequent Access database on February 24, 2009, that showed 1,154 records with 1,973
claims received as of October 30, 2008. The Whistleblower Office staff subsequently advised us
that the original 866 records had 1,086 claims associated with the records provided. Based on
these observations and attempts to verify data accuracy, we concluded that the Access data were
not reliable because the data may not be complete and were not always accurate. This limitation
adversely impacted our ability to identify workload and to evaluate processing actions without
reviewing the hard-copy documents on file. We did conduct analyses on the records associated
with 1,973 claims received by October 30, 2008, but we still had concerns with the completeness
and accuracy of the data. Therefore, we qualified our observations because of those concerns.
To accomplish our objective, we:
I.      Evaluated whether agreed-upon recommendations from our 2006 audit report 1 were
        implemented.
        A. Determined whether the IRS centralized the campuses’ 2 Informant Claims –
           Examination Units and evaluated whether it resulted in increased oversight of the
           Program and standardization of the processing of informant’s claims.
        B. Ascertained whether a nationwide database of informant claims had been developed
           and implemented, and provided increased visibility of the processing and disposition
           of informant claims.
II.     Interviewed the Director, Whistleblower Office, and other personnel involved in the
        program to obtain an overview of the Whistleblower Program processes and procedures
        for the coordination among the Whistleblower Office, the Criminal Investigation

1
  The Informants’ Rewards Program Needs More Centralized Management Oversight (Reference
Number 2006-30-092, dated June 6, 2006).
2
  The data processing arm of the IRS. The campuses process paper and electronic submissions, correct errors, and
forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                         Page 15
                         Deficiencies Exist in the Control and Timely Resolution of
                                           Whistleblower Claims



           Division Confidential Informant Program, and the Large and Mid-Size Business
           Division.
           A. Evaluated whether the Whistleblower Office developed guidelines for screening
              informant claims and routing them to the appropriate function, and whether they
              revised forms, letters, and procedures for the processing of Section 7623(b) cases.
           B. Evaluated whether the Whistleblower Office had established strategic direction for
              the program and developed goals and measures to track the Program’s progress
              toward its mission.
           C. Ascertained whether the Whistleblower Office had a communication plan and
              informed the general public about the new Whistleblower Program.
           D. Evaluated whether the Whistleblower Office defined and communicated the
              performance goals of the Whistleblower Program.
           E. Determined whether the Whistleblower Office prepared the Annual Report on the
              Informant Rewards Program to Congress.
III.       Interviewed the Whistleblower Office program analysts and discussed the processing of
           Section 7623(b) informants’ claims.
           A. Interviewed the Whistleblower Office analysts and determined the procedures for
              processing claims.
           B. Determined the methodology used by the Whistleblower Office to account for and
              track actions on Section 7623(b) informants’ claims, the criteria used for an
              acceptance or rejection decision of Section 7623(b) cases, and whether timeliness
              standards have been established for rendering an accept or reject decision.
IV.        Determined whether I.R.C. Section 6103 (disclosure provisions) affected the Tax Relief
           and Health Care Act of 2006 3 and evaluated the actions taken by the Whistleblower
           Office to share information with informants.
           A. Determined whether IRS Counsel had given an opinion on entering into contracts
              with informants to allow sharing examination activities under I.R.C. Section 6103.
           B. Requested Treasury Inspector General for Tax Administration Counsel’s opinion on
              the legality of the IRS using an I.R.C. Section 6103 exception to permit interaction
              between informants and the IRS.
V.         Reviewed a judgmental sample of the 32 oldest 7623(b) claims from a population of
           1,973 claims and determined whether they were properly processed and routed to the
           appropriate operating division. The judgmental sample was used to identify possible

3
    Pub. L No. 109-432, 120 Stat. 2958 (2006).
                                                                                             Page 16
                   Deficiencies Exist in the Control and Timely Resolution of
                                     Whistleblower Claims



       delays in the processing and routing of claims.
VI.    Assessed how closely the process followed in redesigning and implementing the IRS
       informant reward program changes compares with best practices advocated by the
       Government Accountability Office.
VII.   Developed a matrix and compared and contrasted the IRS Whistleblower legislation to
       the False Claims Act and identified areas where the legislation may need strengthening.
       A. Interviewed appropriate operating division personnel who examined 7623(b) claims
          and discussed the Whistleblower legislation.
       B. Interviewed an attorney who represented several informants that submitted IRS
          Whistleblower claims and discussed the Whistleblower legislation.




                                                                                        Page 17
                   Deficiencies Exist in the Control and Timely Resolution of
                                     Whistleblower Claims



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Russell P. Martin, Director
Edward Gorman, Audit Manager
Kathleen A. Hughes, Senior Auditor
Lawrence R. Smith, Senior Auditor
Stephen Elix, Auditor




                                                                                    Page 18
                  Deficiencies Exist in the Control and Timely Resolution of
                                    Whistleblower Claims



                                                                  Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Director, Whistleblower Office SE:WO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Advisor, Whistleblower Office SE:WO




                                                                         Page 19
      Deficiencies Exist in the Control and Timely Resolution of
                        Whistleblower Claims



                                                      Appendix IV

Management’s Response to the Draft Report




                                                             Page 20
Deficiencies Exist in the Control and Timely Resolution of
                  Whistleblower Claims




                                                       Page 21
Deficiencies Exist in the Control and Timely Resolution of
                  Whistleblower Claims




                                                       Page 22
